No. 19-1041
In The

Supreme Court of the United States
ROSTISLAV KHRAPKO,
Petitioner,
v.
KRISTIN SPLAIN,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Second Circuit

PETITION FOR REHEARING

Rostislav Khrapko
Pro Se Petitioner
11 West 3rd Street
Apt. 303
Corning, NY 14830
(607) 368-7896
hansiks@gmail.com

1
PEPITION FOR REHEARING
Pursuant to Rule 44.2 of this Court, petitioner
Rostislav Khrapko respectfully petitions this Court
for an order (1) granting rehearing (2) vacating the
Court’s March 23, 2020, order denying certiorari (3)
redisposing of this case by granting the petition for a
writ of certiorari in light of intervening circumstances
and substantial grounds presented below.
Federal Legislature and about 20 States including
New York State are working on new laws making
equally shared parenting a rebuttable presumption.
This effort is motivated by the goal of putting families
first, and by the appreciation of children needing both
parents in their lives.
This massive legislative effort reflects the
dissatisfaction with the state court’s practice of
routinely separating children from their parents.
Such decisions maximize institutional financial gain
for the states, personal financial gain for attorneys,
and bring a lot of pain and suffering to the society. The
scale of this problem is enormous: tens of billions of
dollars of annual financial gain, and millions of
discriminatory decisions passed by state courts.
Discrimination for profit is not compatible with the
Fourteenth Amendment and becomes exceedingly
painful in the times of economic uncertainty due to
COVTD-19.
In many cases it can be proven that biased court
decisions were made exclusively for institutional or
personal financial gain and purposefully violated the
Equal Protection Clause. In most cases fathers are
discriminated against, and discriminatory decisions
against them result in higher institutional and
personal financial gains.

2
Unfortunately, fathers do not fall into any of the
protected categories, while discrimination for profit
does not qualify as vindictiveness or a hate crime.
Class of one Equal Protection claims are wrongfully
dismissed by the Second Circuit federal courts, as it
happened in my exemplary case where purposeful
discrimination for personal financial gain was
strongly suggested by factual allegations.
In this difficult economic situation, our Nation as
never before needs a firm support for the rule of law
and the assertion that Equal Protection violation for
financial gain violates the Constitution. This is
recognized by the first question of the present petition
for a writ of certiorari.
Many of us, affected by injustice, learned that the
Constitution does not apply in family court. The
fallout from this notion is a catastrophic breakdown of
justice. Tens of millions of children and parents are
separated, parents are not allowed to give love and
care to their children, while billions of dollars of profit
are made by the family court industry.
Federal district court erred in that no challenges
to the proceedings or the outcomes of the state court
can be made due to domestic relations exception. It is
the duty and the opportunity for this Court to give our
citizens the protection that we need and to assert that
Constitution does apply to the actions of state court
officials regardless of the matters they decide.
Violation of substantive or procedural due process
does not classify as “domestic relations”. When
judicial officer acts irrationally, uses perjury to order
cash payments to an attorney, there should be no
exception to federal jurisdiction.

3
Our Nation has made a great progress in
protecting Human Rights, eliminating hate crime,
and promoting support and trust among people.
However, money is the strongest incentive to breach
the law and ignore the Constitution. If egregious
Constitutional violations by state court employees can
hide behind the domestic relations exception, no new
laws will ever work. Despite the huge scale of the
problem, very few cases reach the Supreme Court.
The second question presented in the present
petition for a writ of certiorari addressed the misuse
of domestic relations exception to federal jurisdiction.
This Court can restore the rule of law in state courts,
something that we as a Nation need so badly in the
present dare economic situation caused by COVID-19.
CONCLUSION
For the foregoing reasons, petitioner Rostislav
Khrapko prays that this Court grants rehearing of the
order denying his petition for a writ of certiorari.
Respectfully submitted,
April ^

2020
Rostislav Khrapko
Pro Se Petitioner
11 West 3rd Street
Apt. 303
Corning, NY 14830
(607) 368-7896

No. 19-1041
In The

Supreme Court of the United States
Rostislav Khrapko,
Petitioner,
v.
Kristin Splain,
Respondent.

CERTIFICATE OF PRO SE PARTY
As a pro se petitioner unrepresented by counsel, I hereby
certify that this petition for rehearing is presented in good faith
and not for delay and is restricted to the grounds specified in
Rule 44.2.
April 6 2020
Rostislav Khrapko
Pro Se Petitioner
11 West 3rd Street
Apt. 303
Coming, NY 14830
(607) 368-7896

